n
NO
No.

20-4070; 12-CV-6180

>

IN THE
r
SUPREME COURT OF THE UNITED STATES

BERNABB ENCARNACION ■

— PETITIONER

(Your Name)
VS.

GLENN GOORD, et al.,

— RESPONDENT(S)

PROOF OF SERVICE

I,

Bemabe Encamacion , Petitioner

, do swear or declare that on this date,
20_?L, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
10 day nf August

The names and addresses of those served are as follows:
Hon. Clerk, Supreme Court of the U.S., 1 First St. N-E. Washington, DC 20543;
Letitia James, Attorney General, State of N.Y • « The Capitol. Albany, N.Y.
Solisitor Gen. of the U.S., Room 5614, D.O.J., 950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
---------I declare under penalty of perjury that the foregoing is true and correct.
>,

Executed on

August 10T

, 20_?1

SWORN TO BEFORE ME THIS
ID_ DAY OF figquA'j'

,20

JaJ- (WiftilplLliL in/I
NOTARY PUBLIC

d(*h.

/Z/h,
(Signature)
Bernabe Encamacion, 91 B 0943
retiti^nej- pro ge
639 Exchange St., P.o. Box 149
Attica, New York 14011-0149

UNITED STATES SUPREME COURT
CAPTION:

i

Encamacion
V.
Goordy et al.
DECIARATI(ON OF SERIVCE
I Bernabe Encamacion, the Petitioner, pro se, in the above-entitled
action' deposes and says that on tile 10 day of Attest; 2C21 I served a
true and exact cony for a Writ of Certiorari and supporting papers to the
U.S. Supreme Court by placed the same in the hands of correction officer
for to be mailing to the Clerk of the Supreme Court, 1 First Street, N.E.,
Washington, DC 20543 by first-class mail.
I have further seved a true and exact copy of said papers upon the
attorney for defendants Letitia James, Attorney General for the State of
New York, The Capitol, Albany, New York 12224 and the Solicitor General of
the United States, Room 5614, Department of Justice, 950 Pennsylvania Ave.,
N.W., Washington, DC 20530-0001, by placed same in a separate envelopes on
the hands of correction officer here at Attica CF, 639 Exchange Street,
P.0. Box 149, Attica, New York 14011, for to be mailing to said parties
office address by first-class mail.
I declare under the penalty of perjury that the foregoing is true and
correct. (Pursuant to 28 U.S.G. § 1746).

iL &Y)
h

Bernabe Encamacion, 91B0943
Petitioner Pro Se
639 Exchange Street, P.0. Box 149

SWORN TO BEFORE ME THIS
P

IQ DAY OF RuStud

20Jj_

KldoSJttllfiLift bnJ'ht-tj d/'Aft
NOTARY PUBLIC

Attica, New York 14011

